         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report


Follow-up on the Management of
Plutonium-239 Sealed Sources
Recovery Activities




OAS-M-06-09               September 2006
                                Department of Energy
                                    Washington, DC                20585

                                    September 12, 2006

MEMORANDUM FOR                  MANAGER, LOS ALAMOS SITE OFFICE
                         &JJ;;C&$ . .Collard
                            I

                                              ('L/?I'<,!
FROM:
                         ~ s s i s t a h Inspector
                                         t         General
                             for Performance Audits
                         Office of Inspector General

SUBJECT:                 INFORMATlON: Audit Report on "Follow-up on the
                         Management of Plutonium-239 Sealed Sources Recovery
                         Activities"



The mission of the National Nuclear Security Administration's (NNSA) Off-site
Recovery Project (OSRP) is to recover unwanted radioactive sealed sources (sources)
held in the piblic sector. thereby reducing the threat of the sources being used in
radiological dispersal de\iices or a "dirty bomb." Plutonium-239 (Pu-239), one of the
rildioactive sealed sources recovered by OSRP, requires additional safeguards because ~t
is a special nuclear material. These sources were manufactured in the United States
(Li S.) and loaned or leased to colleges and universilies, commercial companies and other
coiintries by the Atomic Energy Commission. Due to the fact that they are on loan, they
remain the property of the Department of Energy. As of May 2006, there were 772
outstanding Pu-239 sources, ecli~alingapproxi~nately2'7,300 grams that the OSRP had ycr
to recover.

On August L 1, 2005, we reported that the CSKP could not immediately recover Pu-239
sources when they became excess and unwanied because of a lack of secure inter~rr~
storage. Specifically, in July 2004, OSRP had discontinued recoveries of Pu-239 after
fi Iling the 8,000 grams of dedicated interim storage space that the Nevada Test Site
(Nevada) and Los Alamos National Laboratory (Los Alamos) provided for these sources.
In response to the need for additional storage, Nevada and Los Alamos conlmitted to
providing additional Pu-239 interim storage. Since that time, the Pu-239 sealed source
waste stream was approved to be accepted at the Waste Isolation Pilot Plant (W 1PP).
Subsecluently, 8,000 grams of Pu-239 were shipped to and permanently disposed of at
WIPP.

The objective of this audit was to determine whether additional storage space had been
provided and whether the OSRP now has sufficient Pu-239 storage to fulfill its recovery
mission.

CONCLUSlONS AND OBSERVATIONS

As a result of WIPP's approval of the Pu-239 waste stream, thc OSRP no longer had a
need for the additional interim storage space identified in 2004. Consequently, neither
120sAlamos nor Nevada fulfilled the commitment to provide additional storage and,

                                 69     Prinlcd mith soy ~ n kon r ~ ~ c y ~ lpapcr
                                                                               ccl
instead had reduced total OSRP combined storage from 8,000 grams of dedicated space
to 2,000 grams of undedicated storage space. However, we noted that because the space
had not been specifically dedicated for Pu-239 storage, OSRP continued to experience
difficulties in planning to recover sealed sources. Additionally, no contingency storage
plan existed in the event of shipping delays to WIPP.

                                     Dedicated Storage

Although NNSA and Los Alamos officials determined that the recent approval to dispose
of Pu-239 sources at WIPP had reduced its storage needs to 2,000 grams of dedicated
storage space for Pu-239 sources, the space currently provided had to be shared with
other program offices activities. The sharing arrangement has resulted in frequent
conflicting priorities for the space. For example, a May 2006 International Atomic
Energy Agency training mission took priority over the OSRP space needs during the
month-long training session. OSRP officials told us that, although they were successful
in balancing WIPP shipments and storage priorities for its Pu-239 material, such
conflicting priorities make it difficult to plan for recoveries. We noted that other training
is scheduled in the future, which could also delay planned recoveries.

The current lack of dedicated Pu-239 storage also hampered OSRP's ability to recover
Pu-239 from other countries. For example, the Office of Global Threat Reduction
(NA-21) received a request to recover U.S.-origin Pu-239 sources from Australia and
tasked the OSRP to recover those sources as well as sources from New Zealand,
Philippines and Thailand. Because Pu-239 must be sent by ship, and nuclear material
shipments are scheduled from Australia to the U.S. only about every three years, OSRP
officials told us it is difficult to plan for the international recovery of up to 1,200 grams
without having dedicated storage space available. OSRP will also have to plan for future
international recovery opportunities since there are approximately 6,500 grams of Pu-239
sources located in other countries.

                                      Planned Storage

As a result of these concerns, NNSA management has initiated actions to provide OSRP
with 2,000 grams of dedicated storage at Los Alamos' TA-55 by the end of Fiscal Year
2006. The Deputy Administrator for Defense Programs directed the Los Alamos Site
Office Manager to incorporate this action into Los Alamos' contract performance
execution plans. However, specific plans and schedules to provide the dedicated storage
space had not been prepared at the time of our audit. Specifically, Los Alamos had not
prepared plans to complete the safety authorization basis, risk assessment, management
self-assessment, and a laboratory readiness review that are pre-requisites to providing the
dedicated space.

                                     Contingency Plans

Providing dedicated storage space to OSRP should improve its ability to schedule the
recovery of sealed sources, however, it does not provide full assurance that the project
will be able to continue its mission if WIPP is unable to dispose of the sources in the
future. According to an OSRP official, even with the dedicated storage space for 2000
                                              2
grams of Pu-239, any interruption of final disposal at WIPP would limit OSRP's ability to
continue to recover additional sources. In fact, shipments to WIPP have been interrupted
in the past due to causes outside of OSRP's control, such as recertification issues,
shipping security issues, the transfer of the Los Alamos Waste Certification program
responsibility to a Carlsbad contractor, and the Los Alamos shutdown. In addition to
providing the 2,000 grams of dedicated storage, OSRP officials told us that a contingency
storage plan is needed in the event final disposal of Pu-239 at WIPP is interrupted.

Unless NNSA provides dedicated storage space and prepares a contingency storage plan
for the sealed source recovery mission, OSRP is at risk of missing or delaying
opportunities to permanently eliminate the radiological threat posed by the sources.

RECOMMENDATIONS

We recommend that the Manager, Los Alamos Site Office:

   •   Ensure that Los Alamos completes actions necessary to provide dedicated storage
       space to the OSRP, including preparation of the safety authorization basis, risk
       assessment, management self-assessment and a laboratory readiness review; and,

   •   Prepare a contingency plan for the storage of recovered sources in the event final
       disposal of Pu-239 at WIPP is interrupted.

MANAGEMENT COMMENTS

Management concurred with the recommendations, but believed they should be directed
to the site because the Los Alamos Laboratory will complete the necessary actions to
provide dedicated storage and will prepare a contingency plan in the event that disposal at
"WIPP" is interrupted.

AUDITOR RESPONSE

Management's comments are responsive. We made changes to the report, as appropriate,
to address management's comments.

SCOPE AND METHODOLOGY

This follow-up audit was performed from May 2006 to June 2006 at NNSA
Headquarters; Los Alamos National Laboratory; the Los Alamos Site Office; Nevada Site
Office; and, Nevada Test Site.

To accomplish the audit objective, we:

   •   Examined OSRP international recovery authorizations and strategic plans;

   •   Toured potential storage locations;

   •   Reviewed Department memorandums regarding OSRP;
                                             3
   •   Reviewed Congressional testimonies, inquiries, and NNSA responses;

   •   Analyzed OSRP actual sealed source recoveries by year;

   •   Reviewed prior Office of Inspector General and Government Accountability
       Office audit reports regarding sealed sources; and,

   •   Interviewed NNSA and contractor officials at NNSA Headquarters, Los Alamos
       and Nevada.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because
our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We relied on information
processed on automated data processing equipment to accomplish our audit objective and
therefore we tested the reliability of the automated data. Finally, we reviewed the
implementation of the Government Performance Results Act of 1993, as it related to the
Off-site Recovery Project.

We appreciate the cooperation of your staff during the audit.

Attachment

cc: Administrator, National Nuclear Security Administration
    Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, CF-1.2




                                            4
                                                            IG Report No. OAS-M-06-09

                          CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.

Name ____________________________           Date ____________________

Telephone _______________________ Organization _______________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
